 WORKFORCE INVESTMENT ACT

EVALUATION OF YOUTH PROGRAM
 ENROLLMENTS, SERVICES, AND
    RECORDED OUTCOMES




                 Office of Inspector General
                 Office of Audit
                 Report No. 06-03-006-03-390
                 Date Issued: September 30, 2003
WIA Youth Services Evaluation



                                               TABLE OF CONTENTS



ABBREVIATIONS............................................................................................................ ii

EXECUTIVE SUMMARY ................................................................................................. 1

FINDINGS .......................................................................................................................4

    1. The WIA youth program focused predominantly on in-school, younger youth
       ages 14 through 16............................................................................................... 4

    2. Younger youth were enrolled equally in employment-related, educational,
       and work-readiness activities, whereas older youth were enrolled more in
       employment-related activities. Participation in these reported activities was
       documented to any extent in only 72 percent of the cases. .................................. 6

    3. Almost half the youth exited the program within 1 year. Furthermore, almost
       one of every four youth we sampled, and two of every five youth who enrolled
       during the months of May and June, may have enrolled only for the summer
       employment program. ......................................................................................... 12

    4. Skill attainment was the overwhelming accomplishment (91 percent) for
       younger youth, while entered employment (57 percent) was the predominant
       outcome recorded for older youth. Only 37 percent of these recorded
       accomplishments were adequately documented. ............................................... 16

RECOMMENDATIONS ................................................................................................. 24

APPENDIX A: PARTICIPANT EXAMPLES ................................................................. 26

APPENDIX B: BACKGROUND .................................................................................... 29

APPENDIX C: OBJECTIVES, SCOPE, AND METHODOLOGY .................................. 31

APPENDIX D: ETA’S RESPONSE TO THE DRAFT REPORT .................................... 34




U.S. Department of Labor – Office of Inspector General

                                                                 i
WIA Youth Services Evaluation



                                      ABBREVIATIONS




            DOL            Department of Labor
            ESL            English-as-a-Second Language
            ETA            Employment and Training Administration
            GED            General Equivalency Diploma
            LWIB           Local Workforce Investment Board
            MIS            Management Information System
            OIG            Office of Inspector General
            OJT            On-the-Job Training
            OYS            Office of Youth Services
            TEGL           Training and Employment Guidance Letter
                           Workforce Investment Act of 1998 (Public Law 105-
            WIA
                           220)




U.S. Department of Labor – Office of Inspector General

                                               ii
                                    EXECUTIVE SUMMARY

The U.S. Department of Labor (DOL), Office of Inspector General (OIG) conducted an
evaluation of the Workforce Investment Act of 1998 (WIA) youth programs operated by
Local Workforce Investment Boards (LWIB). For the individuals in our sample, the
program more often than not provided summer employment opportunities to in-school,
younger youth. Also, only 72 percent of reported activities and 37 percent of the
recorded performance measures for our sample youth were adequately documented1.
We performed this evaluation to answer the following questions:

Objective 1: What youth group(s) did the program serve?

The WIA youth program focused on younger, in-school youth ages 14 through 16.
During our evaluation period2, 86 percent (7,104 of 8,284) of the youth participants
enrolled by the 14 LWIBs we reviewed were younger youth (defined by the WIA as ages
14 through 18). We evaluated a random sample of 420 youth cases (359 younger youth,
ages 14 through 18; and 61 older youth, ages 19 through 21) from a judgmental sample
of 14 local workforce investment boards (LWIB) across the continental United States.

Of our randomly selected sample of 359 younger youth, at the time of enrollment:
   !"78 percent were in school.
   !"67 percent were age 16 and under.
   !"17 percent were dropouts.
   !"4 percent were high school graduates not currently attending any school.
   !"Less than 1 percent was enrolled in post-secondary education.

Objective 2: What services did the LWIBs provide the youth?

The younger youth participants were enrolled equally in employment-related, educational,
and work-readiness activities, whereas, older youth were enrolled more in employment-
related activities. We determined that services were recorded for 95 percent of the
participants we sampled. Conversely, we did not find any evidence that 5 percent of the
sampled youth were enrolled in any activity.

Although the LWIBs recorded 95 percent participation, we concluded that participants’
involvement in these recorded activities, in total, was adequately documented in only 72
percent of the cases. The levels of documentation for each activity individually were:

    !"81 percent of employment-related activities were adequately documented;
    !"51 percent of educational activities were adequately documented; and
    !"85 percent of work-readiness activities were adequately documented.


1
  See Appendix C, Objectives, Scope, and Methodology for examples of adequate and inadequate
documentation.
2
  See Appendix C, Objectives, Scope, and Methodology for explanation of evaluation period and
procedures.


U.S. Department of Labor – Office of Inspector General
WIA Youth Services Evaluation

Almost half the youth exited the program within 1 year. Furthermore, over half (227 of
420) the sampled youth enrolled in the youth program during the months of May and
June, including 23 percent (96 of 420) who exited the program in June, July, August, or
September of the same year. We concluded that individuals who both entered and exited
the program during the summer months might have enrolled only for the summer
employment program. Our conclusion is further supported by the fact that of the 96
participants enrolled in May and June and exited in June, July, August, or September, 82
(85 percent) were enrolled in the summer employment program, including 36 (38 percent)
whose only recorded activity was summer employment.

Objective 3: What performance measure accomplishments (skill attainments
             and/or outcomes) did the LWIBs record for these youth?

Of the total 389 younger youth performance measures3 recorded, 91 percent were skill
attainments (an interim performance measure). The remaining recorded measures were
7 percent diploma or equivalent attainment outcomes, and 3 percent were retention
outcomes.4

Outcomes were recorded for only 23 of the 43 older youth (53 percent) who exited the
program. Of the 23 outcomes, 13 (57 percent) were entered employment,
7 (30 percent) were credential attainments, and 3 (13 percent) were employment
retentions.

Only 37 percent of the total 412 recorded skill attainments and outcomes -- 389 younger
youth, 23 older youth -- were adequately documented.

Recommendations:

In our Draft Report, we recommended the Assistant Secretary for Employment and
Training:

    !"Continue to push the Employment and Training Administration’s (ETA) proposed
      amendments to the Workforce Investment Act of 1998 as they relate to the WIA
      youth program. The proposed amendments would focus the program on those
      youth supposedly most in need; i.e., out-of-school, at-risk youth.

    !"Promote amendments to the Workforce Investment Act of 1998 to allow summer
      employment as a stand-alone activity for those participants whose individual
      assessments indicate only such a need. Furthermore, for those summer
      employment program participants whose individual assessments indicate a need
      for educational or other services in addition to summer employment, we

3
  Youth can have more than one skill attainment and/or outcome; therefore, the number of skill attainments
and/or outcomes may exceed the number of participants.
4
  See pages 20 and 21 for a discussion of the diploma or equivalent attainment and retention measures.

U.S. Department of Labor – Office of Inspector General

                                                    2
WIA Youth Services Evaluation

       recommend providers be required to demonstrate that such additional services are
       bona fide, meaningful interventions that address the youth’s identified needs, and
       that participation in such additional services is fully documented.

   !"Require that youth program administrators and/or contractors/service providers
     better document services provided and outcomes recorded to ensure that
     programs are accurately evaluated.

ETA’s Response to Draft Report and OIG’s Conclusions

ETA concurred with the report’s first recommendation. We consider this recommendation
closed.

ETA responded that the second recommendation, to allow summer employment as a
stand-alone activity, is contrary to the original legislative intent, and is in conflict with the
first recommendation. We disagree that the recommendations conflict. Even in a fully
integrated program, a youth’s only need may be occupational and work-readiness skills.
Employment during the summer months could be sufficient to teach these skills. We
continue to believe that services should be provided based on assessed needs, and that
program providers should have the flexibility to determine which services will best meet
those needs. We consider this recommendation unresolved.

In response to the third recommendation, ETA agreed that improved documentation of
services provided and outcomes recorded is necessary. ETA responded that the
implementation of its Data Validation Initiative should serve to improve local program
management of WIA youth programs through the practice of collecting program
management data through a quality management information system (MIS). We
consider this recommendation resolved; it will be closed upon ETA’s demonstrating,
through data validation or other means, that youth services and outcomes are adequately
documented.




U.S. Department of Labor – Office of Inspector General

                                                3
WIA Youth Services Evaluation



                                             FINDINGS

                                                        We concluded that the LWIBs
1. The WIA youth program focused                        focused their programs on
   predominantly on in-school, younger youth            younger, in-school youth ages 14
   ages 14 through 16.                                  through 16 because the WIA
                                                        allows that 70 percent of youth
program funds can be spent on in-school youth. Furthermore, younger youth provide the
LWIBs with an easy to find target audience, and provide the LWIBs with multiple options
to record positive program outcomes, while participants are still enrolled. Yet, the
Assistant Secretary for Employment and Training testified5 that research has shown that
out-of-school, at-risk youth between the ages of 16 and 21 face the greatest workforce
development barriers. Consequently, the program does not appear to be serving those
most in need.

During our evaluation period, 86 percent (7,104 of 8,284) of the participants enrolled by
the 14 LWIBs we reviewed were younger youth (defined by WIA as ages 14 through 18).
Consequently, our evaluation sample was 85 percent (359 of 420) younger youth. Of our
sample of 359 younger youth:

    !"78 percent (281 of 359) were in school.

           o 55 percent (199 of 359) were basic skills deficient, and
           o 23 percent (82 of 359) were not basic skills deficient.

    !"67 percent (240 of 359) were age 16 and under.

           o 23 percent (83 of 359) were age 14.
           o 24 percent (85 of 359) were age 15.
           o 20 percent (72 of 359) were age 16.

    !"17 percent (60 of 359) were dropouts.

    !"4 percent (15 of 359) were high school graduates.

    !"Less than 1 percent (3 of 359) were postsecondary education students.




5
  On March 11, 2003, the Assistant Secretary for Employment and Training testified on the
Administration’s Workforce Investment Act reauthorization proposal before the Committee on Education
                                      st
and the Workforce Subcommittee on 21 Century Competitiveness, U.S. House of Representatives.

U.S. Department of Labor – Office of Inspector General

                                                   4
WIA Youth Services Evaluation

Section 136 of the WIA specifies the following seven core performance indicators for
youth programs:

   !"For younger youth:
     • skill attainment rate
     • diploma or equivalent attainment rate
     • retention rate

   !"For older youth:
     • entered employment rate
     • employment retention rate
     • average earnings change
     • credential attainment rate

The younger youth skill attainments can be claimed while the participants are still
enrolled; i.e., they are an interim measure of program accomplishment prior to the
participants’ exiting the program. The LWIBs can claim a skill attainment if the participant
meets one of three skill goals: basic skills, occupational skills, or work-readiness skills.
Furthermore, the LWIBs can claim as many as three skill attainments per participant, per
year.

The other younger youth performance measures (excluding skill attainments), and all
older youth performance measures, are program outcomes and cannot be claimed until
the youth have exited the WIA program. In our opinion, younger youth are easier to
locate, serve, and claim positive program accomplishments for than older youth.

The Administration’s WIA reauthorization proposal targets out-of-school, at-risk youth for
services under the formula grants awarded to each state government. Younger, in-
school youth would be one group of youth to be served by competitively awarded
challenge grants.

Furthermore, it is our understanding that in the future performance indicators for all youth
will be the same; i.e., youth ages 19 through 21 will no longer be evaluated against the
adult standards.




U.S. Department of Labor – Office of Inspector General

                                               5
WIA Youth Services Evaluation

 2. Younger youth were enrolled equally in               Most youth were reported enrolled
    employment-related, educational, and work-           in one or more of three broad
    readiness activities, whereas, older youth           activities classifications --
    were enrolled more in employment-related             employment-related, educational,
    activities. Participation in these reported          and work-readiness. However, we
    activities was documented to any extent in           did not find any evidence that
    only 72 percent of the cases.                        youth were involved in 28 percent
                                                         of the training activities in which
                                                         they were reported enrolled.

In this report, we have reported the participants’ enrollment both when enrollment was
adequately documented and when some evidence indicated the youth participated in an
activity; e.g., enrollment shown on a management information system (MIS) form but with
no substantiating evidence such as attendance forms, timesheets, or completion
certificates. Therefore, we accepted any evidence of services to give the LWIBs credit
for providing services in order to fully present the activities youth may have been involved
in. Still we were unable to evaluate any evidence that 5 percent of the sampled
youth (22 of 420) were enrolled in any activity.

We classified the following specific LWIB recorded services into the following three broad
activities classification:

   !"Employment-related activities are meant to prepare youth for success in entering
     and staying in the job market. These activities include:
        o summer employment
        o work experience
        o internship
        o apprenticeship
        o on-the-job training (OJT)
        o occupational/vocational skills training
        o job shadowing/counseling

   !"Educational activities are meant to help youth achieve educational goals, such as
     high school completion. Such activities include:
        o basic educational skills
        o General Equivalency Diploma (GED) preparation
        o English-as-a-second language (ESL)
        o tutoring/counseling
        o other instruction leading to secondary school completion
        o postsecondary education




U.S. Department of Labor – Office of Inspector General

                                               6
WIA Youth Services Evaluation

   Work-readiness activities are all activities not included in employment-related or
   educational activities except supportive services. Such activities include:
         o job search techniques
         o preemployment skills
         o life skills
         o peer centered activities
         o organizational/teamwork training
         o community service activities


   A. The different training activities the younger youth were reported enrolled in
      were fairly evenly distributed among the type of activities.

The 359 sampled younger youth were reported enrolled in the following activities:

   !"238 (66 percent) were enrolled in employment-related activities
   !"237 (66 percent) were enrolled in educational activities
   !"236 (66 percent) were enrolled in work-readiness activities

   We did not find any evidence that 14 (4 percent) younger youth participants were
   enrolled in any activity.


   B. Older youth were enrolled more in employment-related than educational or
      work-readiness activities.

Of the 61 older youth in our sample:

   !"33 (54 percent) were enrolled in employment-related activities
   !"23 (38 percent) were enrolled in educational activities
   !"26 (43 percent) were enrolled in work-readiness activities

We did not find any evidence that eight (13 percent) older youth participants were
enrolled in any activity.


   C. Most youth were enrolled in more than one type of activity.

The percentages of training combinations for both younger and older youth are shown
in the table below:




U.S. Department of Labor – Office of Inspector General

                                               7
WIA Youth Services Evaluation



            YOUTH ENROLLED IN MULTIPLE ACTIVITIES BY AGE GROUP
                                                Percent      Percent
                                             Younger Youth Older Youth
     Combinations of Activities
                                                N=359         N=61
     Employment-related, educational, and work-readiness                30 percent           8 percent
     Employment-related and educational                                 10 percent           7 percent
     Employment-related and work-readiness                              12 percent           10 percent
     Educational and work-readiness                                     21 percent           15 percent


          1) Employment-Related Activities

For 238 younger youth, the LWIBs recorded 284 employment-related activities. For 33
older youth, the LWIBs recorded 38 employment-related activities. Summer employment
(60 percent) was the predominant employment-related activity for youth followed by work
experience (30 percent) then classroom occupational/vocational skills training (10
percent). The following analysis shows the breakdown of these employment-related
activities by youth age groups:

                  Younger Youth (284 activities)

                  !"       Summer employment -- 184 activities (65 percent)
                  !"       Work experience6 -- 82 activities (29 percent)
                  !"       Classroom training --18 activities (6 percent) .

                Older Youth (38 activities)

                  !"       Summer employment -- 11 activities (29 percent)
                  !"       Work experience7 --14 activities (37 percent)
                  !"       Classroom training --13 activities (34 percent)


          2) Educational Activities

As figure 2.1, below, shows, younger youth educational activities focused on basic skills
training and tutoring and/or counseling services. Older youth received more basic skills
and GED preparation.




6
     Includes work experience, internships, apprenticeships, on-the-job training, and job shadowing.
7
    Ibid 6.

U.S. Department of Labor – Office of Inspector General

                                                       8
WIA Youth Services Evaluation


                          Older and Younger Youth Were Enrolled in Different
                                    Types of Educational Training

                                1%
                       ESL
                                0%
                                 2%
             Post HS Educ.                      19%

                                         13%
                GED Prep.                                                       50%

                                               18%
              Tutng/Cnslng
                                 4%
                                                                                           66%
                Basic Skills
                                                          27%

                           0%                   25%                       50%                  75%
             Figure 2.1
                                                Older           Younger



        3) Work-Readiness Activities.

Work readiness activities are all activities not included in employment-related or
educational activities. These activities include, but are not limited to, pre-employment
training, such as labor market knowledge, world of work awareness, career planning and
job search techniques. Also included are life (soft) skills training and leadership
development. Both older and younger youth were involved primarily in two work-
readiness activities: pre-employment (including job search) and life skills.


    D. Activities compared to educational status

We analyzed the services LWIBs recorded the youth were enrolled in by the youths’
educational status, as determined by the LWIBs, at the time the youth were enrolled.
We analyzed services provided to 341 younger youth who were either in school -- 199
who were basic skills deficient; 82 were not basic skills deficient8 -- or were dropouts (60
youth). We also evaluated services provided to 22 older youth dropouts.




8
  Of these 82 youth, the LWIBs tested and determined that 69 youth were not basis skills deficient; they did
not test the other 13 participants for basic skills proficiency. For the purpose of this analysis, we have
included all 82 as being “not basic skills deficient.”

U.S. Department of Labor – Office of Inspector General

                                                      9
WIA Youth Services Evaluation

       In-school, basic skills deficient younger youth

Of the 199 in-school, basic skills deficient younger youth:

   !"154 youth (77 percent) were enrolled in 183 educational activities, predominantly
     basic skills activities (135 or 74 percent).

   !"141 youth (71 percent) were enrolled in 177 employment-related activities,
     predominantly summer employment (126 or 71 percent).

       In-school, not basic skills deficient younger youth

The 82 in-school, not basic skills deficient younger youth, received a mix of services:

   !"64 youth (78 percent) were enrolled in 71 employment-related activities,
     predominantly summer employment (53 or 75 percent).

   !"30 youth (37 percent) were enrolled in 35 educational activities, mainly basic skills
     (18 or 51 percent) and GED and/or high school completion (9 or 26 percent).
     While over half the youth were enrolled in basic skills activities, youth in this group
     were not basic skills deficient.

   !"48 youth (59 percent) were enrolled in work-readiness activities.

       Dropouts

Of the 60 younger youth dropouts, 45 participants were enrolled in 55 educational
activities (49 or 89 percent, were basic skills and GED preparation), 22 were enrolled in
employment-related activities, and 36 were enrolled in work-readiness activities.

Twenty-two of the 61 older youth (36 percent) were dropouts of which the LWIB
determined 17 to be basic skills deficient. Yet, only nine received educational activities --
two in basic skills and seven in GED preparation.


   E. Only 72 percent of the total recorded activities were adequately documented.

Only 72 percent of the total recorded activities for all youth (643 of 893) were adequately
documented. As figure 2.2, on the following page shows, individually, only 81 percent of
employment-related activities, 51 percent of educational activities, and 85 percent of
work-readiness activities were adequately documented.




U.S. Department of Labor – Office of Inspector General

                                              10
WIA Youth Services Evaluation

                       Training Activities Reported vs Documented - All Youth



                                                                                225
 Work Readiness                                                                          264

                                                              158
     Educational                                                                          307

                                                                                        260
    Emplmt Rel.
                                                                                           322

                   0        50           100           150          200           250           300

 Figure 2.2                           Reported       Documented


A lack of evidence that participants actually participated in their recorded training
activities might indicate inaccuracies in the reported performance outcomes; i.e., if the
activity is not adequately documented, what reliance can be placed on the recorded
outcomes? Especially important is the number of undocumented educational activities
(49 percent) since 52 percent of the recorded younger youth attainments are basic skills
related. (See finding 4 for attainments information.)




U.S. Department of Labor – Office of Inspector General

                                                         11
WIA Youth Services Evaluation


3. Almost half the youth exited the program              Almost half the youth exited the
   within 1 year. Furthermore, almost one of             program within 1 year, even
   every four youth we sampled, and two of               though the majority of youth were
   every five youth who enrolled during the              younger, in-school youth, ages 14
   months of May and June, may have enrolled             through 16.
   only for the summer employment program.
                                                      Furthermore, over half (227 of 420)
                                                      the sampled youth enrolled in the
youth program during the months of May and June, including 23 percent (96 of 420) who
exited the program in June, July, August, or September of the same year. We concluded
that individuals who both entered and exited the program during the summer months
might have enrolled only for the summer employment program.

   A. Younger Youth.

Of the 359 younger youth, 210 (59 percent) had exited the program at the time of our
evaluation. The table, below, provides the distribution of total time in the program from
registration to exit date, or until August 30, 2002, our evaluation cutoff date, if the youth
had not exited.

                        LENGTH OF TIME YOUNGER YOUTH
                               SPENT IN THE PROGRAM
            Time in Program        Exited     Not Exited     Total
                                  #      %    #       %    #       %
            1-30 days               6     1.7                6     1.7
            31-90 days             84 23.4                  84   23.4
            3-6 months             28     7.8               28     7.8
            7-12 months            48 13.4                  48   13.4
            13-24 months           44 12.3    120     33.4 164   45.7
            Over 24 months                     29      8.1  29     8.1
                        Totals    210 58.5    149     41.5 359 100.0

As the table above shows, almost half (166 of 359) the younger youth exited the program
within a year:

   !"25 percent (90) exited within 90 days,
   !"33 percent (118) exited within 6 months, and
   !"46 percent (166) exited within 12 months.

This high exit rate may point to the emphasis on summer employment instead of
sustained services year round.




U.S. Department of Labor – Office of Inspector General

                                              12
WIA Youth Services Evaluation

Furthermore, 41 percent of the younger youth who had not exited had no record of
activities from over 6 months to over 2 years from the time of their last activity until the
end of our evaluation period (August 30, 2002). Of the 149 youth who had not exited:

   !"13 percent (20) had no recorded training activity for over 6 months to a year.
   !"28 percent (42) had no recorded training activity in over a year.

   B. Older Youth.

Of the 61 older youth, 43 (71 percent) had exited the program at the time of our
evaluation. Thirty-one, or 51 percent, exited within 1 year after enrollment. All of the
older youth who had not exited were in the program over 13 months at the time of our
evaluation.

In general, the status of the older youth at WIA exit were as follows:

   !"14 (33 percent) dropped out or terminated for cause
   !"16 (37 percent) were employed
   !" 7 (16 percent) were unemployed
   !" 6 (14 percent) were in school

The status of youth who dropped out or were terminated prior to program completion
varied, including relocation to another state, medical problems, incarceration, and lack of
cooperation. In some cases, we did not know the status of the youth at exit because of
inadequate documentation or the LWIBs could not locate them.

Youth employed at exit included those who had been working while in the WIA program
and prior to WIA registration. Some participants working at the time of exit may not have
met the youth entered employment performance indicator standard of being employed in
the calendar quarter after the quarter of exit.

   C. While most participants were reported enrolled in multiple activities, over 40
      percent of the enrollees who enrolled in May and June may have enrolled
      only for the summer employment program.

Under WIA, summer youth employment is not intended to be a stand-alone program.
Title 20 Code of Federal Regulations, Subpart F, § 664.600(d) states:

       The summer youth employment opportunities element is not intended to
       be a stand-alone program. Local programs should integrate a youth’s
       participation in that element into a comprehensive strategy for addressing
       the youth’s employment and training needs. Youths who participate in
       summer employment opportunities must be provided with a minimum of
       twelve months of followup services, as required in § 664.450.


U.S. Department of Labor – Office of Inspector General

                                              13
WIA Youth Services Evaluation



Because of the summer employment program’s dominance in terms of activities, we
analyzed the exit dates of those individuals whose program enrollment dates were in May
and June to attempt to determine how many may have been enrolled only for the summer
program; i.e., exited in either June, July, August, or September of the same year.
Specifically, we found:

For younger youth:

       !"57 percent (206 of 359) were enrolled in May and June.

       !"63 percent (130 of 206) of May and June enrollees exited the program.

       !"of these, 68 percent (88 of 130) exited the program in June, July, August, or
         September of the same year.

For older youth:

       !"34 percent (21 of 61) were enrolled in May and June.

       !"43 percent (9 of 21) of May and June enrollees exited the program.

       !"of these, 89 percent (8 of 9) exited the program in June, July, August, or
         September of the same year.

Therefore, 42 percent (96 of 227) of all youth who were enrolled in May and June exited
the program in June through September of the same year, indicating they may have been
enrolled for the summer program only. Our conclusion is supported by the fact that of the
96 participants (enrolled in May and June and exited in June, July, August, or
September), 82 (85 percent) were enrolled in the summer employment program,
including 36 (38 percent) whose only recorded activity was summer employment.

   D. Approximately 40 percent of younger youth who had summer employment
      as an activity had summer employment as their only activity or their
      participation in other recorded activities was not documented.

In addition to the analysis in finding C above (for those enrolled during May and June and
exited in May through September), we determined that 166 younger youth participants,
regardless of enrollment date, had summer employment as an activity. Of these 166
participants:

       !"40 (24 percent) had summer employment as their only recorded activity.
       !"27 (16 percent) had summer employment and other activities; however,
         participation in the other activities was not documented.


U.S. Department of Labor – Office of Inspector General

                                              14
WIA Youth Services Evaluation



Consequently, for 67 of these166 summer employment program participants, summer
employment was either a stand-alone activity or the LWIBs did not document that it was
not a stand-alone activity. Simply recording enrollment in other activities does not
document that the activities actually happened.




U.S. Department of Labor – Office of Inspector General

                                              15
WIA Youth Services Evaluation


4. Skill attainment was the overwhelming              For our 359 younger youth and 61
   accomplishment (91 percent) for younger            older youth samples, the LWIBs
   youth, while entered employment (57                recorded 389 younger youth skill
   percent) was the predominant outcome               attainments and outcomes and 23
   recorded for older youth. Only 37 percent of       older youth outcomes.9 Skill
   recorded accomplishments were adequately           attainment (91 percent) was the
   documented.                                        overwhelming accomplishment for
                                                      the younger youth, whereas,
entered employment (57 percent) was the predominant outcome for older youth.
However, only 37 percent of younger youth and 48 percent of older youth performance
measurements recorded -- 37 percent in total -- were adequately documented.

Although it was not within the evaluation’s scope to verify officially reported state
performance indicators, we did examine the accomplishments (skill attainments and
outcomes) the LWIBs recorded in their MIS for each youth sampled.

Section 136 of the WIA specifies seven core performance indicators for youth programs:

        For younger youth                                    For older youth
        • skill attainment rate                              • entered employment rate
        • diploma or equivalent attainment rate              • employment retention rate
        • retention rate                                     • average earnings change
                                                             • credential attainment rate

The younger youth skill attainments can be claimed while the participants are still
enrolled. The other younger youth outcomes and all older youth performance
outcomes cannot be claimed until the youth have exited from the WIA program. The
older youth performance indicators are virtually the same as for adults.

We understand that in the future performance indicators for all youth will be the same;
i.e., youth ages 19 through 21 will no longer be evaluated against the adult standards.

    A. Younger Youth Skill Attainment Rate

The younger youth skill attainment is the only WIA performance measure that can be
measured and reported while the participant is still enrolled in the younger youth
program. Skill attainments are limited to a measured increase of knowledge in basic
skills, occupational skills, or work-readiness skills. All youth measured in the skill
attainment rate must have a minimum of one skill goal set per year, may have a
maximum of three goals per year, and the target for accomplishing each skill goal must

9
 Youth can have more than one skill attainment/outcome; therefore, the number of skill attainments and/or
outcomes may exceed the number of participants.

U.S. Department of Labor – Office of Inspector General

                                                   16
WIA Youth Services Evaluation

be set for no later than 1 year. If a youth accomplishes a skill goal, the accomplishment
is included in the skill attainment rate program performance indicator.

We examined the younger youth skill attainments recorded during the first year
subsequent to the registration date, regardless of WIA exit date. TEGL 7-99 provides the
following regarding skill attainments:

           To measure skill attainment for the younger youth skill attainment
           measure, local programs must assess youth at intake to determine
           whether they are in need of basic skills, work readiness skills,
           and/or occupational skills. This assessment will include a review of
           basic skills, occupational skills, prior work experiences,
           employability, interests, aptitudes and supporting service needs.
           From this assessment, skill attainment goals will be established. . . .
           To determine whether youth meet the skill attainment goals will
           require a pre-assessment and post-assessment of skill level. The
           use of a standardized assessment procedure such as a
           standardized test or a performance-based assessment with a
           standardized scoring method is encouraged. . . . In cases where a
           standardized test or a performance-based assessment is not
           available (such as for work-readiness skills), assessment
           techniques must be objective, unbiased, and conform to widely
           accepted, clearly defined criteria, be field tested for utility,
           consistency, and accuracy, and provide for the training/preparation
           of all raters/scorers. . . . All data and methods to determine
           achievement of skill attainment goals must be documented and are
           subject to audit. [Emphasis added.]

Of the 359 younger youth, the LWIBs recorded one or more attainments for 237 youth, or
66 percent. The following table shows the number of attainments claimed per youth for
the 237 youth who received one or more attainments.

             Number of Skill Attainments Recorded Per Youth
                1                  2                3                   Total
                                                                        Youth
                 138               81                      18            237
                (58%)            (34%)                   (8%)          (100%)




U.S. Department of Labor – Office of Inspector General

                                              17
WIA Youth Services Evaluation

The 237 youth recorded a total of 354 attainments as follows:

                                  Type Skill                Attainments
                                                                        Percent
                                  Attainment                  Claimed
                           Basic skill                         185          52%
                           Occupational skill                   62          18%
                           Work-readiness skill                107          30%
                                                    Total      354         100%

For those with only one attainment recorded:

   !"62 percent of the attainments claimed were for basic skills,
   !"15 percent were for occupational skills, and
   !"23 percent were for work-readiness skills.

          1) Basic Skill Attainments.

Basic skill attainments accounted for 185 (52 percent) of the LWIBs’ recorded youth skill
attainments. The basic skill attainments are accomplished by attaining a measurable
increase in basic skills such as reading comprehension, writing, speaking, listening,
problem solving, reasoning, and the capacity to use these skills. Figure 3.1, below,
shows the specific basic skill attainments recorded by the LWIBs and the number of
attainments that were adequately documented. In our opinion, only 50 percent (93 of
185) of the claimed basic skill attainments were adequately documented. (See
appendix B, Objectives, Scope and Methodology, for adequate/inadequate
documentation examples.)

               Basic Skill Attainments - Recorded vs Documented
     75
                                               71
     60         51

     45
                     33          33                             30
                                       26
     30                                                              21
                                                       13

     15

      0
           Reading/Wrtng        Math        R/W & Math      GED/HS Prep.
 Figure 3.1
                                Recorded    Documented


See appendix A, participant example 1, for an example of recorded basic skill
attainments not adequately documented.

U.S. Department of Labor – Office of Inspector General

                                                      18
WIA Youth Services Evaluation

          2) Occupational Skill Attainments

Occupational skill attainments accounted for 62 (18 percent) of the 354 youth skill
attainments recorded. Occupational skill attainments are achieved by gaining a
measurable increase in knowledge of an occupational skill. Our evaluation revealed the
types of training used to attain an occupational skill attainment included classroom and
vocational training, work experience (on-the-job training, internships, and
apprenticeships), and summer employment. The 62 recorded occupational skill
attainments were based on the following activities:

      !"35 (56 percent) were based on summer employment.
      !"21 (34 percent) were based on regular work experience.
      !"6 (10 percent) were based on classroom/vocational training.

We concluded only 1 of the 62 (2 percent) LWIB recorded occupational skill attainments
were adequately supported. The following type documentation was used by the LWIBs
to support the skill attainments10:

      !"1 (2 percent) was based on a post-test taken to measure knowledge gained from
        the occupational training.

      !"34 (55 percent) were supported only by a statement in the youths’ case files, case
        management notes, or some form of MIS information.

      !"20 (32 percent) were supported by subjective evaluations. Most of these
        evaluations are performed by the youth’s instructor or supervisor and consist of a
        numerical rating on several different segments of the training performed prior to
        and subsequent to the training activity. This type documentation usually resulted
        in low ratings at the start of training followed by high ratings at training completion.

      !"6 (10 percent) were based on a completion certificate. In our opinion, completion
        certificates issued by the LWIB, its partners, or contractors are not an objective
        form of support for attainments.

      !"1 (2 percent) was based on the completion of one semester at a community
        college.


          3) Work-Readiness Skill Attainments.

Work-readiness skill attainments accounted for 107 (30 percent) of the LWIBs’ recorded
youth attainments. Work-readiness skills include (but are not limited to) such topics as
labor market knowledge, career planning and decision-making, job search techniques,
10
     Percents add to 101% due to rounding.

U.S. Department of Labor – Office of Inspector General

                                                19
WIA Youth Services Evaluation

and survival/daily living skills (soft skills). In order to claim a work-readiness skill
attainment the LWIB must show the youth achieved a measurable increase in knowledge
of work-readiness skills.

We concluded only 20 percent of the 107 work-readiness skill attainments claimed were
adequately documented.

   !"21 (20 percent) were based on a post-test taken by the youth to measure
     knowledge gained from the work-readiness training.

   !"15 (14 percent) were supported only by a statement in the youths’ case files, case
     management notes, or some form of MIS information.

   !"41 (38 percent) were based on a subjective evaluation. These evaluations were
     very similar to the ones used to support the occupational skill attainments.

   !"30 (28 percent) were based on completion certificates. In our opinion, completion
     certificates issued by the LWIB, its partners, or contractors are not an objective
     form of support for a skill attainment.

See appendix A, participant example 2, for an example of not only work-readiness, but
also occupational and educational skill attainments not adequately documented.
Furthermore, this example shows how two performance outcomes (basic skill attainment
during enrollment and diploma or equivalent attainment after exit) were claimed for the
same accomplishment – obtaining a high school diploma.


   B. Younger Youth Diploma or Equivalent Attainment Outcome

The diploma or equivalent attainment performance outcome represented 7 percent of
total younger youth recorded accomplishments (26 of 389).

To achieve the diploma or equivalent attainment performance outcome the younger youth
participant must have attained a secondary school diploma or equivalent by the end of
the first quarter after exit. The participants who exit WIA while still enrolled in secondary
school are excluded from this measure. Our evaluation was designed to collect the
performance accomplishments the LWIBs recorded for our participant sample overall. As
it was not our objective to separately evaluate subsets of exiters, we do not know how
many of the 210 sampled younger youth exiters were still in school at the time of exit.
The LWIBs recorded that 26 of the 210 younger youth exiters (12 percent) achieved this
outcome. The actual percentage may be higher, because participants enrolled in school
at the time of exit would be excluded from the denominator, resulting in a higher
calculated percentage of outcome attainment.

Twenty-two of the 26 (85 percent) recorded outcomes were adequately documented.

U.S. Department of Labor – Office of Inspector General

                                              20
WIA Youth Services Evaluation



   C. Younger Youth Retention Rate Outcome

This performance outcome represented 2 percent of total younger youth recorded
accomplishments (9 of 389).

The younger youth retention outcome can be claimed if the youth is involved in any one
of five activities -- postsecondary education, advanced training, employment, military
service, or qualified apprenticeships -- during the third quarter after the exit quarter. It
does not matter if the youth did not exit WIA into one of the activities, it only matters that
he/she was involved in one of these activities at any time during the third quarter after
exit quarter. All younger youth who exit WIA while still enrolled in secondary education
are excluded from this measure.

As discussed in finding B above, our evaluation was designed to determine the
performance accomplishments the LWIBs recorded for our participant sample, not to
determine the LWIBs’ levels of accomplishment for this performance outcome. In
addition to us not knowing how many of the 210 sampled younger youth who exited the
program were still enrolled in secondary school at the time of exit, it takes an extensive
time frame after WIA exit to determine this performance measure. At the time of our
evaluation, some participants may not have yet qualified to be evaluated against this
outcome because of the time frame. This may account for the small number of retentions
recorded. However, the retention outcome was recorded for 9 of the 210 youth (4
percent) in our sample who had exited the program. Actual accomplishment of this
outcome may be higher for those who were not still enrolled in secondary school at the
time of exit and sufficient time frame has now passed.

Only six of the nine outcomes (67 percent) were adequately documented.

See appendix A, participant example 3, for an example of a verified recorded retention
outcome that does not measure program success.


   D. Older Youth Entered Employment Rate Outcome

The entered employment performance outcome means the youth was employed
sometime during the first full quarter after the quarter the youth exited the WIA program;
i.e., if unemployment insurance wage records show any earnings for the quarter after exit
quarter. This measure includes only those youth who were not employed at WIA
registration and were not enrolled in postsecondary education or advanced training in the
quarter after exit.

Although wage records are the primary data source, supplemental wage data sources
may be used if the employer is exempt from reporting wages to the state such as Federal


U.S. Department of Labor – Office of Inspector General

                                              21
WIA Youth Services Evaluation

employment, postal service, military, railroad, self-employment, and employment where
earnings are primarily based on commission.

The entered employment outcome was recorded for 30 percent (13 of 43) of the exited
older youth; yet, we could substantiate only 7 of the 13 outcomes, or 54 percent.

This performance outcome represented 57 percent of total older youth recorded
outcomes (13 of 23).


   E. Older Youth Retention in Employment Rate Oucome

A youth is considered as retained in employment if state wage records show any
earnings in the first and third quarter after the WIA exit quarter, not necessarily with the
same employer, and the youth was not enrolled in postsecondary education or advanced
training in the third quarter after WIA exit.

As in the entered employment indicator, supplemental wage data sources may be used if
the employer is exempt from reporting wages to the state.

We found that 7 percent (3 of 43) of the exited older youth were recorded as retained in
employment; yet, we could substantiate only one of the three outcomes. As with the
younger youth retention attainments, this small number of older youth recorded retentions
is most likely because not enough time had elapsed subsequent to the WIA exit date to
determine if the youth had actually been retained in employment.

This performance outcome represented 13 percent of total older youth recorded
outcomes (3 of 23).


   F. Older Youth Credential Attainment Outcome

A credential is defined as a nationally recognized degree or certificate or state/locally
recognized credential. Credentials include, but are not limited to a high school diploma,
GED or other recognized equivalents, post-secondary degrees/certificates, recognized
skill standards, and licensure or industry-recognized certificates. All state education
agency recognized credentials should be included.

Credentials must be obtained either while the participant is still participating in the WIA
program or by the end of the third quarter after exit from the WIA program. The
participant must have been employed or participating in training by the first quarter after
exit to receive a credential by the third quarter after exit.




U.S. Department of Labor – Office of Inspector General

                                              22
WIA Youth Services Evaluation

The LWIBs claimed that 16 percent (7 of 43) of the exited older youth received one or
more credentials. We could substantiate only three of these recorded credential
outcomes.

This performance outcome represented 30 percent of total older youth recorded
outcomes (7 of 23).




U.S. Department of Labor – Office of Inspector General

                                              23
WIA Youth Services Evaluation



                                    RECOMMENDATIONS


We recommend the Assistant Secretary for Employment and Training:

   !"Continue to push ETA’s proposed amendments to the Workforce Investment Act
     of 1998 as they relate to the WIA youth program. The proposed amendments
     would focus the program on those youth most in need; i.e., out-of-school, at-risk
     youth.

   !"Promote amendments to the Workforce Investment Act of 1998 to allow summer
     employment as a stand-alone activity for those participants whose individual
     assessments indicate only such a need. Furthermore, for those summer
     employment program participants whose individual assessments indicate a need
     for educational or other services in addition to summer employment, we
     recommend providers be required to demonstrate that such additional services are
     bona fide, meaningful interventions that address the youth’s identified needs, and
     that participation in such additional services is fully documented.

   !"Require youth program administrators and/or contractors/service providers better
     document services provided and outcomes recorded to ensure that programs are
     accurately evaluated.


ETA’s Response to Draft Report and OIG’s Conclusions

ETA concurred with the report’s first recommendation. We consider this recommendation
closed.

ETA responded that the second recommendation, to allow summer employment as a
stand-alone activity, is contrary to the original legislative intent, and is in conflict with the
first recommendation. We disagree that the recommendations conflict. Even in a fully
integrated program, a youth’s only need may be occupational and work-readiness skills.
Employment during the summer months could be sufficient to teach these skills. We
continue to believe that services should be provided based on assessed needs, and that
program providers should have the flexibility to determine which services will best meet
those needs. We consider this recommendation unresolved.

In response to the third recommendation, ETA agreed that improved documentation of
services provided and outcomes recorded is necessary. ETA responded that the
implementation of its Data Validation Initiative should serve to improve local program




U.S. Department of Labor – Office of Inspector General

                                               24
WIA Youth Services Evaluation

 management of WIA youth programs through the practice of collecting program
management data through a quality management information system (MIS). We
consider this recommendation resolved; it will be closed upon ETA’s demonstrating,
through data validation or other means, that youth services and outcomes are adequately
documented.




U.S. Department of Labor – Office of Inspector General

                                              25
WIA Youth Services Evaluation

                                                                              APPENDIX A

                                Participant Example 1
                     Example of recorded basic skill attainments not
                                adequately documented

A 15-year old youth completed the 8th grade prior to entering the WIA program. On July
5, 2000, this youth was purported at program entry to have grade-level test scores of 8.0
in reading and 7.4 in math. On July 27, 2000, 3 weeks after entry, this participant was
purported to have increased her grade-level test scores to 8.5 in reading (½ grade level
increase) and 9.8 in math (almost 2½ grade level increase). A 2½ grade level increase in
math is a remarkable achievement in a 3-week period (during summer months) for
someone who had just completed the 8th grade.

We determined the LWIB’s supporting documentation to be inadequate to record two
basic skill attainments for the following reasons:

       Reading attainment: The participant’s file included both a pre- and post-test.
       Both tests have the same answers. However, the pre-test has a grade of 8.0 and
       the post-test has a score of 8.5 without any further explanation as to why the post-
       test is scored higher. Furthermore, was the participant basic-skills deficient in
       reading at the tested 8.0 entry grade level when she had just completed the 8th
       grade prior to enrollment? If she was not basic-skill deficient at entry, can a basis
       skill attainment be recorded?

       Furthermore, in our opinion, the same person did not mark the answers on both
       forms. The “x” marking the answers on the pre-test form are in a different style
       than the “x” marking the answers on the post-test.

       Math attainment: The participant’s file included two Wide Range Achievement
       Test, Revision 3 test sheets to document both pre- and post-test scores. Both test
       sheets were blank with the exception of the participant’s name, date, and
       handwritten raw and grade-level scores. This documentation is inadequate to
       justify almost a 2½ grade level increase in math skills in a 3-week period.

In our opinion, the LWIB’s evidence for these attainments was not adequate.




U.S. Department of Labor – Office of Inspector General

                                              26
WIA Youth Services Evaluation

                                                                         APPENDIX A (cont’d)
                                Participant Example 2
            Example of work-readiness, occupational, and educational skill
                      attainments not adequately documented

This 18-year-old female youth was halfway through the 12th grade headed toward graduation at
the time she registered for the WIA program. She entered the program in December 2000 and
exited the program in May of 2001 with a special education diploma from high school.

The LWIB set three goals for this youth:

   !"Improve math score by 0.1 grade (basic skills).
   !"Achieve 80 percent efficiency on indicators from work skills inventory (occupational skills).
   !"Improve use of working time by one point on personal evaluation sheets (work-readiness
     skills).

Services she was reported enrolled in were:

   !"undocumented counseling/mentoring and some basic skills; and
   !"documented work experience --1 hour and 45 minutes a day, Monday through Friday -- as
     a general clerk while attending high school.

The LWIB recorded all goals had been met and claimed three skill attainments (basic,
occupational, and work readiness) for this participant.

   !"The participant’s work-readiness attainment was supported by a pre- and post-program
     evaluation form with only two of the potential twelve performance measures completed.
     One of the performance measures was for attendance for which she was rated the same,
     absent or late often, on both the pre- and post-program evaluation forms. For the use of
     working time goal, she exceeded the goal because she increased two points (not one) on
     her use of working time. According to the pre- and post-program evaluation forms, she
     went from wastes time on the pre-evaluation to keeps busy on the post-evaluation.

   !"The basic skill attainment was not documented other than the youth obtained her special
     education diploma from the high school she was already attending in the 12th grade when
     enrolled. Obtaining a diploma is an outcome separate from a basic skill attainment. In
     fact, the LWIB also claimed the diploma or equivalent attainment performance indicator for
     the youth graduating from high school.

   !"The occupational skill attainment was documented with very subjective, partially
       completed evaluation form. The mid-year evaluation was dated April 18, 2001, showing
       56 percent efficiency on the work skills inventory (rather than the 80 percent necessary to
       achieve the attainment). No post-program evaluation was completed after April 18, 2001.
       Yet, her file shows she met the goal on May 15, 2001.




U.S. Department of Labor – Office of Inspector General

                                               27
WIA Youth Services Evaluation

                                                                   APPENDIX A (cont’d)

                                Participant Example 3
           Example of a verified, recorded retention outcome that does not
                        measure the success of the program.


We verified that the retention the LWIB recorded in its MIS for this youth was accurately
recorded because state wage records showed the participant had wages during the third
quarter after his WIA exit quarter.

The youth exited the WIA program during the first quarter of 2001 and had part-time
employment during the exit quarter ($301 earnings) and first quarter after exit ($168
earnings). We did not find any earnings in the second quarter after exit. In the third
quarter after exit, the State wage files showed earnings of $12 from a different employer.
Consequently, the State can report a positive retention outcome for this youth because of
$12 of wages in the third quarter after the WIA exit quarter. Even though this recorded
positive outcome meets ETA’s performance measurement criterion, it raises questions if
the outcome truly represents a meaningful outcome.




U.S. Department of Labor – Office of Inspector General

                                              28
WIA Youth Services Evaluation

                                                                               APPENDIX B


                                      BACKGROUND


The DOL’s Employment and Training Administration (ETA), Office of Youth Services
(OYS), administers the nation’s WIA youth programs. DOL grants funds to the states
that, in turn, subgrant funds to local communities to implement youth programs.

Authorized under Section 126 of WIA, state and local activities are formula-funded youth
programs that provide improved comprehensive services to eligible youth, 14 to 21 years
old in local communities. Funds are allocated to state and local areas on a formula
distribuiton determined by the number of unemployed individuals in areas of substantial
unemployment; the relative excess number of unemployed individuals in a state; and the
relative number of disadvantaged youth in a state.

Section 129 of WIA allows that 70 percent of youth program funds can be spent on in-
school youth by providing that a minimum of 30 percent of the funds shall be used to
serve out-of-school youth. Therefore, we conclude the WIA emphasizes services to in-
school youth.

The purposes of the WIA youth program are to provide youth with:

   !"assistance in achieving academic and employment success;
   !"training opportunities;
   !"mentoring opportunities;
   !"supportive services; and
   !"incentives for recognition and achievement.

To determine what services each youth needs, local areas are to objectively assess each
youth’s basic skills, occupational skills, prior work experience, employability, interests,
aptitudes, supportive service needs, and developmental needs. The WIA, Section
129(c)(1)(B) requires that every participant shall have a individual service strategy as a
“roadmap” for training and employment.

WIA section 129(c)(2) provides that the following services are available to youth
participants:

   (1) tutoring, study skills training, and instruction leading to secondary school
       completion, including dropout prevention strategies;

   (2) alternative secondary school offerings;



U.S. Department of Labor – Office of Inspector General

                                              29
WIA Youth Services Evaluation

                                                                    APPENDIX B (cont’d)


                                  BACKGROUND (cont’d)

   (3) summer employment opportunities directly linked to academic and occupational
   learning;

   (4) paid and unpaid work experiences, including internships and job shadowing,

   (5) occupational skill training;

   (6) leadership development opportunities,

   (7) supportive services,

   (8) adult mentoring for a duration of at least 12 months, that may occur both during
       and after program participation;

   (9) followup services, and

  (10) comprehensive guidance and counseling, including drug and alcohol abuse
       counseling, as well as referrals to counseling, as appropriate to the needs of the
       individual youth.




U.S. Department of Labor – Office of Inspector General

                                              30
WIA Youth Services Evaluation

                                                                               APPENDIX C

                      OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall evaluation objective was to identify participant services and training activities
as well as outcomes information on participants who registered during program year
2000 -- July 1, 2000, through June 30, 2001.
Specific Evaluation Objectives
    !"What youth group(s) did the program serve?
    !"What services did the LWIBs provide the youth?
    !"What performance measure accomplishments (skill attainments and/or outcomes)
      did the LWIBs record for these youth?

Scope

We evaluated a sample of 420 youth (359 younger youth, 61 older youth) who registered
and entered the youth program between July 1, 2000, and June 30, 2001. First, we
selected a judgmental sample of 14 LWIBs across the continental U.S. Each LWIB
provided a universe of participants who enrolled during the period July 1, 2000, and
June 30, 2001. We examined the universes to ensure that all participants were enrolled
during this period. Then, we randomly sampled 30 participants per selected LWIB.
Proportionate groups of younger (14 through 18 years old) and older (19 through 21
years old) participants were selected based on their numbers in the LWIBs’ participant
universes. The following sites were included in the evaluation.

       Kern/Inyo/Mono Consortium                                  Bakersfield, CA
       San Diego Workforce Partnership, Inc.                      San Diego, CA
       Larimer County Workforce Investment Board                  Fort Collins, CO
       Delaware Workforce Investment Board                        Wilmington, DE
       Hillsborough County Workforce Board, Inc.                  Tampa, FL
       Northwest Georgia Workforce Investment Area –
                                                                  Rome, GA
         Coosa Valley Regional Development Center
       Hennepin County Training and Employment
                                                                  Minneapolis, MN
         Assistance
       Central Area Workforce Investment Board                    Albuquerque, NM
       Three Rivers Workforce Investment Board                    Pittsburgh, PA
       Workforce Investment Network (Shelby-Fayette
                                                                  Memphis, TN
         Counties and City of Memphis)
       Coastal Bend Workforce Development Board                   Corpus Christi, TX
       Tacoma-Pierce County Workforce Development
                                                                  Tacoma, WA
          Council
       East Baton Rouge Parish Workforce Investment Board         Baton Rouge, LA
       Dallas - WorkSource for Dallas County                      Dallas, TX


U.S. Department of Labor – Office of Inspector General

                                              31
WIA Youth Services Evaluation

                                                                   APPENDIX C (cont’d)

Methodology

Our evaluation procedures included, but were not limited to:

   !"Comparing selected MIS data (e.g., services received, recorded outcomes, etc.)
     with information obtained from reviewing the LWIB and service providers’
     participant files.

   !"Reviewing participants' files for documentation of services and outcomes recorded
     (including types of training provided to participants).

   !"Interviewing LWIB and service provider staff regarding participant file information,
     evaluating and comparing Workforce Investment Act Standardized Record Data
     definitions to states’ and LWIBs’ definitions.

   !"Reviewing states’ wage files to confirm recorded entered unsubsidized
     employment and employment retention outcomes.

We recorded all training activities where there was any evidence of the youths’
participation from their dates of enrollment, which could be between July 1, 2000, and
June 30, 2001, to the date of our fieldwork. For some analyses, when youth had not
exited, we used a cutoff date of August 30, 2002, for consistency. Skill attainments were
recorded only for the first 12 months subsequent to the younger youth’s registration date.

       Documentation standards

Because each state and LWIB establish their own standards regarding what constitutes
adequate documentation for training activities provided to WIA participants, the level of
documentation of such services varied greatly. As a result, the OIG made its own
conclusions as to what the OIG considered adequate documentation for the purposes of
this evaluation.

Documentation of services provided: Some examples of adequate documentation of
services provided would include attendance records, sign-in-sheets, payroll records,
course grades, invoices, progress reports, completion certificates, diplomas and
participant interviews. Less adequate documentation (especially if only one type exists)
would include case management notes, contract or training agreement (but no invoices),
participant self-attestation, staff interviews, correspondence, and various types of MIS
information (without any other corroborating evidence). In many cases in this evaluation
the only documentation in the file to support services supposedly provided was an MIS
form. When several types of less acceptable documentation were in the file, such



U.S. Department of Labor – Office of Inspector General

                                              32
WIA Youth Services Evaluation

accumulation of documentation might provide stronger assurance to the auditor in
exercising his/her judgment regarding the adequacy of the documentation.

Documentation of youth skill attainments and other outcomes: ETA’s TEGL 7-99
addresses the methodology necessary to support all youth performance measures
except younger youth skill attainments. TEGL 7-99 provides the following regarding skill
attainments:

   To measure skill attainment for the younger youth skill attainment measure,
   local programs must assess youth at intake to determine whether they are in
   need of basic skills, work readiness skills, and/or occupational skills. This
   assessment will include a review of basic skills, occupational skills, prior work
   experiences, employability, interests, aptitudes and supporting service needs.
   From this assessment, skill attainment goals will be established. . . . To
   determine whether youth meet the skill attainment goals will require a pre-
   assessment and post-assessment of skill level. The use of a standardized
   assessment procedure such as a standardized test or a performance-based
   assessment with a standardized scoring method is encouraged. . . . In cases
   where a standardized test or a performance-based assessment is not
   available (such as for work-readiness skills), assessment techniques must be
   objective, unbiased, and conform to widely accepted, clearly defined criteria,
   be field tested for utility, consistency, and accuracy, and provide for the
   training/preparation of all raters/scorers. . . . All data and methods to
   determine achievement of skill attainment goals must be documented and are
   subject to audit. [Emphasis added.]

Therefore, in looking for support for skill attainments, we looked for objective pre- and
post-assessments of skill levels. Obviously, the most objective documentation of a basic
skill (reading and math) attainment would be copies of graded pre- and post-tests
demonstrating a measurable gain in reading or math skill levels. Documentation not
adequate to support a basic skill attainment would be a record made in the MIS that an
attainment was achieved with no corroborating evidence. Additionally, while attendance
records or completion certificate may adequately support that a participant was in a
specific training activity, such records would not support a skill attainment outcome
because a skill attainment must show some measurable gain of knowledge. Simple
attendance at or completion of an activity does not ensure success. Examples of the
type documentation used for our evaluation of occupational and work-readiness skill
attainments are provided in finding 4.

Our evaluation was not intended to provide opinions on the LWIBs, the states, or overall
WIA program’s performance.

We conducted our evaluation in accordance with the Quality Standards for Inspections
published by the President’s Council for Integrity and Efficiency.


U.S. Department of Labor – Office of Inspector General

                                              33
WIA Youth Services Evaluation




                    APPENDIX D
        ETA’S RESPONSE TO THE DRAFT REPORT




U.S. Department of Labor – Office of Inspector General

                                              34
